   October 3, 2003




Acquisition


Disclosure of Contractor Data
for the Development of Night
Vision and Display Systems
(D-2004-001)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFRL                  Air Force Research Laboratory
IPNVG                 Integrated Panoramic Night Vision Goggles
PNVG                  Panoramic Night Vision Goggles
PRDA                  Program Research and Development Announcement
SBIR                  Small Business Innovative Research
          Office of the Inspector General of the Department of Defense
Report No. D-2004-001                                                    October 3, 2003
   (Project No. D2003AB-0054)

       Disclosure of Contractor Data for the Development of Night
                       Vision and Display Systems

                                Executive Summary

Who Should Read This Report and Why? Civil service and military managers with
oversight responsibility for contracts awarded under the Small Business Innovative
Research Program and personnel involved with technical data rights should read this
report. The report discusses the Small Business Innovative Research contracting process
as well as roles and responsibilities relating to technical data rights.

Background. In November 2002, Night Vision Corporation sent a letter to
Senator Richard Durbin with two concerns. The first concern was whether the Air Force
unlawfully passed Night Vision Corporation’s technology to Insight Technology and
subsequently awarded Insight Technology a manufacturing contract for night vision
goggles. The second concern was whether Insight Technology violated its nondisclosure
agreement while working as a subcontractor to Night Vision Corporation.
Senator Durbin requested that we review these concerns. This report addresses the first
concern. We did not address the second concern because this issue is a contract dispute
between the two contractors that does not involve the Government. Additionally, in the
event that the dispute between the two contractors resulted in litigation, the appropriate
forum for resolution would be through the judicial process, not with the Department of
Defense.

Results. The audit did not substantiate Night Vision Corporation’s concern that the Air
Force Research Laboratory improperly released any data from its Small Business
Innovative Research contract. The Air Force Research Laboratory allowed contractors,
wanting to submit proposals to the Program Research and Development Announcement
solicitation, the opportunity to review military specifications, military standards,
technical reports, and hardware. However, contractors were not permitted to review any
detailed technical drawings or proprietary data developed under the Small Business
Innovative Research Program. Hardware delivered under the Small Business Innovative
Research Program Phase II was made available by the Air Force for any contractor to
examine if permission was requested. Night Vision Corporation acknowledged that it
had no evidence or documentation to show that the Air Force conveyed any technical
data to Insight Technology.

Management Comments. We provided a draft of this report on June 23, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                2

Finding
     Disclosure of Proprietary Technical Data by the Air Force Research
        Laboratory                                                        3

Appendixes
     A. Scope and Methodology                                             5
         Prior Coverage                                                   5
     B. Congressional Request                                             6
     C. Report Distribution                                               7
Background
    The audit was performed in response to a congressional request concerning the
    improper disclosure of data pertaining to the development of night vision goggles
    and display systems.

    Small Business Innovative Research Program. The Small Business
    Administration Office administers the Small Business Innovative Research
    (SBIR) Program. The SBIR provides the funding for the critical startup and
    development stages of innovative research activities while encouraging the
    commercialization of technology, products, or services. Agencies make SBIR
    awards based on small business qualifications, degree of innovation, technical
    merit, and future market potential. Small businesses that initially receive awards
    or grants are eligible for two additional SBIR phases. A contractor that receives
    Phase I funding is not guaranteed to receive either a Phase II or Phase III award.
    Phase I is the startup phase where awards are made up to $100,000 to support
    exploration of the technical merit or feasibility of an idea or technology. Phase II
    awards are made for up to $750,000 to expand Phase I results. During this time
    the research and development work is performed and the developer evaluates
    commercialization potential. Only Phase I awardees are considered for Phase II.
    Phase III awards consist of moving the innovation into the marketplace. The
    small business must find funding in the private sector or other non-SBIR Federal
    agency funding.

    Air Force Research Laboratory. The Air Force Research Laboratory’s (AFRL)
    headquarters is located at Wright Patterson Air Force Base in Dayton, Ohio. The
    goal of AFRL is to create a more efficient, effective organization to support the
    Air Force’s global engagement vision. The AFRL mission is to discover,
    integrate, and deliver affordable technologies for improved warfighting by
    leading a partnership of Government, industry, and academia. Overall, the lab is
    responsible for planning basic research to ensure continued technological
    superiority, and developing and transitioning new technologies for Air Force
    weapon systems and their supporting infrastructure.
    Night Vision Goggle Program. In May 1995, the Air Force awarded Night
    Vision Corporation a Phase I SBIR contract to develop Panoramic Night Vision
    Goggles (PNVG). During this phase, a demonstrator was developed that provided
    a significantly improved field of view. The demonstrator used tube assemblies
    with folded optics and a remote power supply. Because of the achievement of
    Phase I, a Phase II contract was awarded in July 1996 to further develop two
    models of the goggle: a model for aircraft that might require ejection (PNVG I)
    and a model for non-ejection aircraft and ground personnel (PNVG II).

    Program Research and Development Announcement. A Program Research
    and Development Announcement (PRDA) is a method of soliciting proposals for
    research and development, when the area of interest is more specialized but still
    has general application and is associated with the needs of a program or
    programs. In April 2000, Insight Technology was awarded a PRDA contract for
    Integrated Panoramic Night Vision Goggles (IPNVG). The contract was for the
    design and manufacturing of 55 IPNVG systems for the Air Force and Army.


                                         1
     The IPNVG system incorporates filmless and thin-film, low halo, high-fill-factor
     image intensifier tubes with straight through channels. The IPNVG
     manufacturing was simplified and the design affords increased interchangeability
     of parts and facilitates easier maintenance than earlier versions of night vision
     goggles.


Criteria
     Air Force Military Command Policy Directive 61-1. Directive 61-1 for SBIR
     and Small Business Technology Transfer Programs, dated February 5, 2001,
     designates the AFRL as the office of primary responsibility for the Air Force
     SBIR Program. The Air Force SBIR Program objectives are to stimulate
     technological innovation, strengthen the role of small businesses to meet Federal
     research and development needs, foster and encourage participation by minorities
     and disadvantaged persons in technological innovation, and increase the
     commercial application of federally supported research.

     Small Business Innovative Research Program Policy Directive. The SBIR
     Policy Directive, dated September 24, 2002, discusses contractor technical data
     and data rights and provides for retention of rights in data for 4 years from the end
     of any SBIR phase. The SBIR Policy Directive defines SBIR technical data as all
     data generated during the performance of an SBIR award. SBIR technical data
     rights are the rights that the small business concern obtains in data generated
     during the performance of any SBIR phase award in which the Government
     receives a license.

     According to officials at the Small Business Administration, the small business
     that is awarded the contract under the SBIR Program owns the technical data
     rights because of its contract with the Government. Also, the SBA officials
     considered any drawing, including those submitted by a subcontractor, to be the
     property of the small business under contract.

Objectives
     The overall audit objective was to evaluate whether the AFRL, Wright-Patterson
     Air Force Base, improperly disclosed proprietary technical data from SBIR
     contracts for the development of night vision and display systems. See
     Appendix A for a discussion of the scope and methodology as well as for prior
     coverage related to the objectives.




                                           2
            Disclosure of Contractor Data by the Air
            Force Research Laboratory
            No evidence to support the allegation that the Air Force Research
            Laboratory (AFRL) released data developed by Night Vision Corporation
            during Phase II of the SBIR Program, could be found. Because of
            dissention among the prime contractor and the subcontractor during
            phases of the SBIR Program, the AFRL felt it was in the best interest of
            the Government to issue a Program Research and Development
            Announcement (PRDA) to explore enhancements to the PNVG Program.
            The allegation, submitted as part of a congressional request concerning the
            improper release of technical data by AFRL, was not substantiated.

Release of Technical Data
     Allegation. AFRL personnel improperly disclosed proprietary technical data
     from a Small Business Innovative Research contract for the development of night
     vision and display systems with Night Vision Corporation to another contractor,
     Insight Technology.

     Audit Results. We did not substantiate the allegation that the Air Force
     improperly released contractor data. Based on our review, the Air Force released
     no contractor data belonging to Night Vision Corporation to Insight Technology.
     The AFRL established a Technical Document Center where contractors interested
     in submitting proposals to the PRDA solicitation had the opportunity to review
     military specifications, military standards, technical reports, and hardware.
     However, contractors were not permitted to review any detailed technical
     drawings or proprietary data developed under the SBIR Program. Hardware
     delivered under SBIR Phase II was made available by the Air Force for any
     contractor to examine upon request. Night Vision Corporation acknowledged that
     it had no evidence or documentation to show that the Air Force conveyed any
     technical data to Insight Technology.

     Although Night Vision Corporation believed that a Phase III contract should have
     been awarded to them to produce the goggles they developed, AFRL believed that
     the deterioration of relationships between the Night Vision Corporation and its
     subcontractors posed an unacceptable risk. The AFRL also wanted to further
     advance panoramic night vision technology by issuing a new research
     announcement.

     Contractor Relationship. Night Vision Corporation is a small company with
     only a few employees and limited manufacturing capabilities. A significant
     amount of the work under Phase II consisted of subcontract work with other
     firms. Night Vision Corporation subcontracted with Insight Technology for the
     design and development of the housings and coverings for the monoculars of the
     binocular assembly for the ejection-safe goggles. Insight Technology is a small
     business, with approximately 200 employees and facilities and equipment capable
     of producing night vision goggles.


                                         3
During the performance of Phase II work, disputes arose between Night Vision
Corporation and Insight Technology concerning ownership of technical data
rights for parts of the developed goggles. Because of the dissention among the
contractors over the ownership of the technical data and the deterioration of their
working relationship, the Air Force was concerned about the stability of the
teaming arrangement. The Air Force decided that it was in the best interest of the
Government to solicit contractors to explore options for enhancing PNVG to
ensure successful continuance of the night vision goggle program.

Advanced Technology. The Air Force issued a PRDA to discover the potential
for enhancements to PNVG. As a result of the PRDA solicitation, Insight
Technology proposed IPNVG, which consisted of a binocular assembly
comprised of two monocular assemblies, each with an inner and outer channel.
The Air Force found the Insight Technology technical approach to be responsive
and acceptable for award. Night Vision Corporation submitted a proposal to a
PRDA; however, the Air Force concluded that the Night Vision Corporation’s
overall proposal was weak and did not address many of the technical areas
necessary to fully detail the approach to the issues set forth in PRDA. Also,
Night Vision Corporation’s proposal did not identify the majority of the program
team, and there was no supporting documentation from any of the subcontractors
showing cost or commitment to perform.

According to documentation compiled by AFRL, the new IPNVG includes new
enhancements. All optical elements and the image intensifier tube assemblies in
both the inner and outer channels are identical. The IPNVG incorporates filmless
and thin-film, low halo, high-fill-factor, 16mm image intensifier tubes with
straight through channels. The IPNVG also has an integral wraparound power
supply housed in the image intensifier tube itself that is insulated for protection
against environmental elements. The IPNVG design affords interchangeability of
the image intensifier tubes and facilitates easy maintenance of goggles.

Engineers from the Technical Assessment Division, Office of the Deputy
Inspector General for Auditing, analyzed the non-ejection goggle proposed and
developed under Night Vision Corporation’s SBIR Phase II contract and
compared it to the goggle proposed by Insight Technology under the PRDA.
Night Vision Corporation’s non-ejection goggle was the subject of the allegation
of improper technical data transfer. The engineers’ assessment concluded that the
Insight Technology goggle, as previously described, was significantly different
from Night Vision Corporation’s goggle developed under the SBIR Phase II
contract. Because of the sensitive nature of the information in the technical
assessment, we have not included the assessment as an appendix in this report.
The results of the assessment are available upon request.




                                     4
Appendix A. Scope and Methodology
    We performed the audit to determine whether the allegation we received from
    Senator Durbin in December 2002 had merit. We discussed the allegation with
    the staff at the offices of the Small Business Administration, AFRL, Night Vision
    Corporation, and Insight Technology.

    We performed this audit from January 2003 through June 2003 in accordance
    with generally accepted government auditing standards. The audit scope was
    limited to the allegation of the Air Force disclosing proprietary technical data.
    We did not address a second Night Vision Corporation concern that one of its
    subcontractors violated a nondisclosure agreement between the two contractors
    because this issue is a contract dispute between the two contractors that does not
    involve the Government. Additionally, in the event that the dispute between the
    two contractors resulted in litigation, the appropriate forum for resolution would
    be through the judicial process, not with the Department of Defense. We also did
    not review the management control program because this was not an announced
    objective.

    We identified, analyzed, and documented applicable laws, and regulations for
    SBIR technical data rights. We reviewed contracts from 1995 through 2002. We
    also reviewed SBIR contracts for both fixed wing ejection and rotary wing non-
    ejection of PNVG. We also reviewed the contracts for the fixed wing ejection
    and rotary wing non-ejection IPNVG. We also examined both fixed wing
    ejection and rotary wing non-ejection goggles. We interviewed officials at the
    Small Business Administration and AFRL, and also contractor personnel.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    Use of Technical Assistance. We received technical support from the Office of
    the Deputy Inspector General for Auditing, Technical Assessment Division in
    determining the degree of difference in the PNVG goggle developed by Night
    Vision Corporation and the IPNVG goggle that was manufactured under the
    PRDA by Insight Technology.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    DoD Weapons System Acquisition.


Prior Coverage
    No prior coverage has been identified on the release of proprietary technical data
    for PNVG by the AFRL from the General Accounting Office, the Office of the
    Inspector General of the Department of Defense, or the Air Force Audit Agency
    during the last 5 years.




                                         5
Appendix B. Congressional Request




                      6
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          7
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        8
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Mary L. Ugone
Bruce A. Burton
Michael E. Simpson
Thomas J. Hilliard
Chrispian M. Brake
Dana K. Johnson
Gloria J. Parker
Chandra P. Sankhla
Ann A. Ferrante
Jacqueline N. Pugh
